Ti

symane  (SOCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.

PINOLEVILLE POMO NATION, ANGELA JAMES,
LEONA L. WILLIAMS, LENORA STEELE,
KATHY STALLWORTH, MICHELLE CAMPBELL,
JULIAN J. MALDONADO, DONALD WILLIAMS,
VERONICA TIMBERLAKE, CASSANDRA STEELE,
JASON EDWARD RUNNING BEAR STEELE,
and ANDREW STEVENSON,

Petitioners,

v.

JW GAMING DEVELOPMENT, LLC,

a California limited liability company,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6815 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Lhe ,
My Commission Expires Nov 24, 2020 :

Notary Public Affiant

 

39363
